OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/WEST
AFRICA’S PEACE THROUGH
DEVELOPMENT II PROGRAM

AUDIT REPORT NO. 7-625-14-001-P
March 28, 2014




DAKAR, SENEGAL
Office of Inspector General


March 28, 2014

MEMORANDUM

TO:      	         USAID/West Africa Mission Director, Alexandre Deprez

FROM: 	            Regional Inspector General/Dakar, Abdoulaye Gueye /s/

SUBJECT:	          Audit of USAID/West Africa’s Peace Through Development II Program
                   (Report No. 7-625-14-001-P)
This memorandum transmits our final report on the subject audit. We have considered
your comments on the draft report and included them, without attachments, in Appendix II.
The final report contains 12 recommendations to help USAID/West Africa improve its
Peace through Development II Program. In its comments on the draft report, USAID/West
Africa agreed with all 12 recommendations. Based on our evaluation of management
comments, we acknowledge that the mission made a management decision on all
recommendations and has taken final action on Recommendations 2, 3, 9, and 12.
Please coordinate final action for Recommendations 1, 4, 5, 6, 7, 8, 10, and 11 with the
Office of Audit Performance and Compliance Division. Thank you for the cooperation and
assistance extended to the audit team during this audit.




U.S. Agency for International Development
American Embassy Dakar
Route des Almadies
Dakar, Senegal
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Program Was Not Progressing as Planned ............................................................................ 5 


     Implementer’s Budget Was Unrealistic, and Program Had Cost Overruns............................. 7 


     Two of Three Local Partners Discontinued Partnerships With Implementer......................... 12 


     Majority of Data Tested Were Inadequately Supported or Incorrectly Reported................... 14 


     Implementer Did Not Apply Internal Controls, Policies, and Procedures .............................. 15 


     Start-up Activities Were Not Completed on Time.................................................................. 17 


     Part of Training Did Not Take Place...................................................................................... 18 


Evaluation of Management Comments................................................................................... 20 


Appendix I—Scope and Methodology .................................................................................... 22 


Appendix II—Management Comments ................................................................................... 24 


Appendix III—Program Results for First Year and Half of Second Year.............................. 29 


Abbreviations

The following abbreviations appear in this report:

ALT             Association Lead Tchad
ADS             Automated Directives System
FDC             Fondation pour le Développement Communautaire
HR              human resources
IRD             International Relief and Development
M&E             monitoring and evaluation
OIG             Office of Inspector General
PDEV            Peace through Development II Program
PMP             performance management plan
WFP             World Food Programme
SUMMARY OF RESULTS 

Africa’s Sahel is a vast band of semiarid grasslands stretching across the continent, separating
the Sahara Desert in the north from the tropical lands in the south. About 50 million people
inhabit the Sahel in some of the poorest, most unstable countries in the world. Many are
frustrated by the lack of economic opportunities, weak and corrupt governments, and natural
resource degradation. Therefore, they are vulnerable to violent extremism and the influence of
terrorist groups. Youth are especially vulnerable if they are unemployed, uneducated, and do
not have any job prospects.

Burkina Faso, Chad, Mauritania, and Niger are four countries in the Sahel that are at risk. While
violent or extreme ideology is not widespread in these nations, the chances of it taking hold are
likely to increase if living standards and governments do not improve.

To address these concerns, the U.S. Departments of Defense and State, and USAID have
formed the Trans-Sahara Counterterrorism Partnership to improve country and regional
capabilities in the Sahel and the nearby Maghreb1 to defeat terrorist organizations. Contributing
to the goals of this partnership, USAID’s West Africa Regional Mission launched the Peace
through Development II Program (PDEV)2 to help make communities less vulnerable to violent
extremism in Burkina Faso, Chad, Mauritania, and Niger. The mission signed a 5-year,
$61.7 million cooperative agreement with International Relief and Development (IRD) on
November 14, 2011, to implement the program in those countries, but Mauritania was later
dropped from the scope.

USAID views PDEV as a “new, high-profile assistance program”3 that will guide future efforts for
countering violent extremism in the Sahel. PDEV is implemented by IRD in collaboration with
Search for Common Ground, Salam Institute for Peace and Justice, Equal Access International,
and local partners. According to USAID, the program supports targeted communities in their
struggle against violent extremist organizations and ideology through activities that strengthen
social cohesion, improve the outlook for youth, and promote moderate behavior. PDEV
established four objectives to achieve these goals.

1. 	“Empower Youth.” Young people are vulnerable to being recruited by extremist groups.
    Mission and IRD officials said if they are more hopeful about their current and future
    situations, the chances of them getting involved with extremist groups and ideologies
    decreases. Thus PDEV aims to make youth less vulnerable by giving them vocational and
    entrepreneurial skills, civic education, and leadership training to increase the amount of time
    they take part in making decisions in their communities.

2. 	 “Increase Moderate Voices.” Mission and IRD officials said radio programs about peace and
     tolerance, social media, civic education, and conflict resolution activities can improve
     people’s attitudes and behavior. Through this kind of programming, PDEV tries to give
     people more moderate, hopeful, and less violent opinions/interpretations of their
     circumstances.

1
  The Maghreb is a region in northwest Africa. In this program, it covers Algeria, Morocco, and Tunisia.

2
  This program is a follow-on to one carried out by Academy for Educational Development/Family Health

International. 

3
  Request for Application, June 21, 2011.



                                                                                                       1
3. 	 “Increase Civil Society’s Capacity.” Civil society organizations address and/or advocate for
     issues that governments are not tackling sufficiently. PDEV supports helping these
     organizations improve their ability to address issues that, if not addressed, may persuade at-
     risk populations to support or take part in violent extremist activities.

4. 	“Strengthen Local Government.” Activities that strengthen local government—especially
    those that increase community and youth participation—promote unity. Communities that
    can influence priorities of local government may discourage at-risk populations from turning
    to violence.

The program employs a community-led, participatory approach and uses community grants to
implement a broad range of activities including small-scale construction projects. The grants
fund activities to strengthen social cohesiveness. They also fund activities to improve quality of
life such as vocational training for youth and other at-risk groups and building wells and radio
towers. By providing these groups with employable skills and improving their general well-being,
they may be less likely to turn to violence.

The audit focused primarily on activities from the start of the program in November 2011 until
March 31, 2013. During that period, USAID/West Africa had obligated $25.7 million and
disbursed $10.4 million for PDEV activities. In the 3 months that followed, the mission disbursed
an additional $4.2 million.

The objective of the audit was to determine whether USAID/West Africa’s PDEV activities were
on track to help make at-risk communities less vulnerable to violent extremism. The audit
determined that the program was not because of significant problems that occurred in the first
year. As of the end of March 2013, more than $10.4 million had been spent with few results.
Two of the program’s four objectives had not been implemented as required, and the remaining
two had limited results.

Discrepancies between the planned versus actual performance results underscore this problem.
Only 26 percent of the activities in IRD’s work plan for the first year were implemented by the
year’s end, and the program did not make any progress on 10 of 22 planned outputs.4 Halfway
through the second year, only 60 percent of the activities planned were implemented, and the
program made less than 20 percent of its annual targets for 17 of 22 planned outputs. In fact,
nine had no results at all.5 (Appendix III has a breakdown of the results.)

In addition to not completing activities and making progress on outputs as planned during the
first two years (page 5), the following problems further demonstrate why the program was not on
track to achieve its goals.

	 IRD’s budget was unrealistic, and the program had cost overruns (page 7). The program
   spent 69 to 442 percent more than what was budgeted primarily for operating cost in the
   first year. With only 3 months left in the second year, the program had already exceeded its
   annual budget for nearly all line items relating to operating expenses by 18 to 364 percent.
   Despite these overruns, IRD spent only 6 percent of its budget for program interventions

4
 The quality of IRD’s data is questioned later in the report. 

5
 The program’s work plan outlines the activities it is to complete during the year to achieve the desired 

outcome. The performance indicators list the outputs that are expected as a result of those activities.

Several may be required to achieve an output; for example, to distribute school supplies (an output), the

program may have numerous activities leading up to the actual distribution. 



                                                                                                        2
      and 28 percent for subawards in the first year, and 20 percent and 56 percent, respectively,
      in the first 9 months of the second.

	 Two of three local partners discontinued their partnerships with IRD (page 12). They did so
   within the first year because they were dissatisfied. By losing these partners, many of the
   activities the local partners were responsible for were not implemented.

	 Most of the data tested were either not supported adequately or reported correctly
   (page 14). Without reliable data, it is difficult to accurately assess IRD’s performance and
   determine whether the program is achieving its intended objectives.

	 IRD did not apply internal controls, policies, and procedures (page 15). During the first year,
   there were control weaknesses in human resources (HR), planning and budgeting,
   procurement, travel, inventory, oversight, and IRD’s organizational structure.

	 Start-up activities were not completed on time (page 17). The program in Burkina Faso
   started 1 year late and IRD spent a year finalizing in which communities it would work in.
   Additionally, the baseline study, the performance management plan (PMP), and monitoring
   and evaluation (M&E) plan were finalized much later than planned. Field offices were set up
   5 months to 1 year late and were not all operational.

     Imams6 did not train other imams, as required (page 19). Salam Institute, one of the
      subpartners, trained 24 imams to reinforce plurality, tolerance, and nonviolence in Chad.
      They were then supposed to train 480 other imams. Four months after the initial training,
      however, they had not done so.

The problems that occurred during the first year were predominately due to IRD’s inability to
staff and start the program properly, put the necessary management and control systems in
place, and train employees. While some things were out of IRD’s control, such as an extended
interagency process that led to delays in the startup in Burkina Faso, ultimately the
organization’s lack of attention and resources set the program up to fail in the first year

To address the problems noted above, the audit recommends that USAID/West Africa:

1. 	Implement a corrective action plan that describes the initiatives to be implemented to
    improve performance; the milestones and timelines; the monitoring process; and the
    remedial actions that will be taken if the program is not making progress as planned
    (page 7).

2. 	 Implement a plan to increase activity managers’ monitoring of the program to measure and
     verify progress against performance milestones (page 7).

3. 	 Require IRD to select local partners in Chad and Niger to carry out activities for the third and
     fourth objectives (page 7).

4. 	 Conduct a review of IRD’s systems of budgetary control and liquidity management for the
     program (page 12).



6
    A Muslim religious leader or chief.


                                                                                                   3
5. 	 Consult with activity managers to confirm that cost estimates for particular items (like rent
     and equipment) included in the realigned budget reflect current market costs in each country
     and, to the extent possible, verify with them that each country’s budget properly reflects
     expected costs for activities planned (page 12).

6. 	 Ask IRD to provide financial reports on a quarterly basis that analyze line-item expenditures
     against the budget, and highlight and discuss any significant variations (page 12).

7. 	 Require IRD to formalize its relationships with local partners through contracts or written
     agreements and comply with the terms of the subagreements (page 13).

8. 	 Require IRD to implement a plan to provide adequate oversight, support, and training to
     local partners (page 14).

9. 	 Work with IRD to fill vacant M&E positions with qualified staff (page15).

10. Conduct a thorough follow-on data quality assessment o   	 f PDEV activities during the
    first quarter of the 2014 calendar year once the program’s M&E system has been fully
    implemented and tested (page 15).

11. Confirm with IRD that the specified training from an internal auditors’ report has been
    provided and that the program has a plan to address these training needs regularly
    (page 17).

12. Require IRD to clarify and document responsibilities and procedures for activities that follow
    Salam Institute training workshops and curriculum development activities, clearly setting out
    the roles and responsibilities of all stakeholders, including the institute, and allocating
    appropriate financial resources toward these efforts (page 19).

Detailed findings appear in the following section. Appendix I contains information on the scope
and methodology. Mission comments, without attachments, are included in Appendix II, and our
evaluation of them is on page 20.




                                                                                                4
AUDIT FINDINGS 

Program Was Not Progressing
as Planned
According to its work plans, IRD was to implement a total of 143 activities in the first year and
177 activities for first 6 months of the second (October 2012 to March 2013) in Burkina Faso,
Chad, and Niger. However, only 26 percent of the first year’s activities and 60 percent of the
second year’s activities were implemented as planned (Table 1).

             Table 1. Results of First- and Second-Year Work Plans (Unaudited)

               November 2011 to September 2012                   October 2012 to March 2013
            Number                                      Number of        Number
                         Number of                                                       Percentage of
            of                          Percentage      activities       implemented
Country                  activities                                                      activities
            activities                  implemented     planned for      in first
                         implemented                                                     implemented
            planned                                     first 6 months   6 months
 Burkina         -­
                               --              --               49              15              31
 Faso*
 Chad             72           14              19              69               45              65
 Niger            71           23              32              59               46              78
 Total           143           37              26              177             106              60
* Activities were not implemented in Burkina Faso until the second year, as explained on page 17.

IRD was supposed to implement the following activities under each of the four objectives.

Objective 1. These youth-focused activities included literacy and leadership training, vocational
training for people considered most at-risk, providing school supplies, and “community
mapping”—getting feedback from local people about what their communities need. The program
made some progress in leadership training and providing school supplies, but was significantly
behind on vocational and literacy training and community mapping, as discussed below.

	 Vocational Training. Preparations for vocational training for those most at risk of violent
   extremism in Chad and Niger was supposed to start in the first year; this involved doing a
   market assessment, finding potential trainers, and submitting the grant proposals to USAID
   for approval. The training had a budget of $640,000 and was supposed to begin in
   September 2012 in Niger and February 2013 in Chad.

    However, it did not take place. As of April 2013, only 38 (3 percent) of 1,150 youth targeted
    to receive vocational training in all three countries in the second year had gotten it.

	 Literacy Training. Despite having a target of 2,7707 people trained for the second year, no
   literacy training had occurred as of March 2013. This activity was not even listed in that
   year’s work plan.


7
 This is the revised target, which USAID had not yet approved. According to IRD’s fiscal year 2013
Quarter 2 progress report, the previous target for the activity for the second year was 27,270.


                                                                                                     5
	 Community Mapping. The mapping process was supposed to start in March 2012 in Niger
   and Chad, but did not start until May 2013, more than 1 year later than planned.

Objective 2. Activities geared to encouraging moderate behavior focused on the following:
building the capacity of radio stations; increasing access to quality, credible information through
public information campaigns; producing and broadcasting radio programs; training religious
leaders and Quranic school teachers in civic education; and facilitating inter/intra faith activities.

As of March 2013, PDEV had already exceeded its annual targets for training media outlet staff,
producing and broadcasting radio programs, and training religious leaders, but lagged behind in
the other activities. The program assisted only 3 of 32 radio stations targeted, did not complete
any of the 12 public information campaigns, and did not facilitate any of the 6 inter/intra faith
activities planned for the year.

Objective 3. Results in increasing civil society’s capacity in Chad and Niger were limited and
nonexistent in Burkina Faso as of March 2013. Activities included training civil society
organizations to better address community issues and increasing citizen participation and
advocacy by establishing community action committees—PDEV’s main mechanism for working
with a community to identify what made it vulnerable to violent extremism and to propose
activities (to be funded through grants) to address those vulnerabilities.

The committees were supposed to be formed in April 2012 in Chad and Niger; instead, they
were formed 3 months late in Niger (June 2012) and 9 months late in Chad (December 2012).
Of the 50 committees that the program was supposed to set up in the second year, only 19 (or
38 percent) were formed as of March 2013, and none of the targeted 300 committee members
had been trained. Additionally, at that time only 36 (or 14 percent) of the 250 civil society staff
members targeted for the year had received the designated training.

Objective 4. There were no results for strengthening local government in the first year and
limited results halfway into the second. Activities planned for the second year included training
250 local government officials to address community issues using an open, participatory
process; conducting 12 workshops among municipalities to identify, develop, and share
information about the best ways to encourage participatory, accountable, and open decision-
making; assisting with 200 community events to discuss development priorities; and completing
50 community development projects.8 However, as of March 2013, the only results reported
were for seven community development projects.

Two significant components of the program that contribute to all of the objectives are small-
scale construction activities and community grants. Both were scheduled to start in July 2012
according to the original program design, but implementation in Burkina Faso was delayed until
the second year (discussed on page 17).

As of June 2013, construction activities had not started in any of the three countries, which
combined had a budget of $2.7 million for such activities in the first 18 months of the program.
No grant activities were implemented in the first year, and they had a budget of $673,000 for all
three countries. Activities did not begin in Niger and Chad until November and
December 2012—5 to 6 months later than planned.



8
    Targets listed for each activity are from the second year’s second-quarter progress report, Annex D.


                                                                                                           6
The program’s start-up was slow and poorly implemented, which affected IRD’s ability to carry
out activities on time. High turnover also was a factor, and it was unclear why there had been so
much. In the first 18 months, PDEV had three different chiefs of party,9 two deputy chiefs of
party, three directors of finance and administration, and two country directors for Chad and
Niger. Since then, IRD lost another chief of party and country director for Chad. By
October 2012, turnover of local hired staff reached 31 percent in Niger and 51 percent in Chad.

Grant activities were delayed because PDEV’s managers did not train staff on how to use the
grant manual or how to link grant activities to the risk factors for violent extremism. As a result,
the processes outlined in the manual were not followed, and staff sometimes submitted grants
for activities that fell outside the scope of the program.

Consequently, the program was not on track to achieve its goals. As of March 31, 2013, more
than $10.4 million had been spent with few results to show. PDEV’s overall effectiveness to
counter violent extremism was decreased, evidenced by the discrepancies between IRD’s
planned versus actual outputs. The program did not make any progress on 10 of 22 planned
outputs in the first year. Halfway through the second, it had achieved less than 20 percent of its
annual targets for 17 of 22 planned outputs; 9 had no results at all. (Appendix III has a
breakdown of results.)

In response to IRD’s poor performance in the first year, USAID officials sent a notification letter
in November 2012 to the organization’s president and chief executive officer to voice their
concerns. Three months later they met with him and also with PDEV’s chief of party to review
performance and corrective actions taken. USAID sent a second notification letter in March
2013 recognizing that progress had been made but more was needed.

To improve program performance, we make the following recommendations.

    Recommendation 1. We recommend that USAID/West Africa implement a corrective
    action plan that describes the initiatives to be implemented to improve performance, the
    milestones and timelines, the monitoring process, and the remedial actions that will be
    taken if the program is not making progress as planned.

    Recommendation 2. We recommend that USAID/West Africa implement a plan to
    increase activity managers’ monitoring of the program to measure and verify progress
    against performance milestones.

    Recommendation 3. We recommend that USAID/West Africa require International
    Relief and Development to select local partners in Chad and Niger to carry out activities
    for the third and fourth objectives.

Implementer’s Budget Was
Unrealistic, and Program Had Cost
Overruns
USAID’s request for applications for PDEV specified a budget of approximately $61.9 million for
work in four countries over 5 years. The request suggested geographic areas to target but left it
up to the applicant to define the scope and budget breakdown.
9
  This includes the original chief of party who was named in the agreement but backed out before the
program began.


                                                                                                  7
In its application, IRD proposed to target 101 geographic zones and submitted a 5-year budget
for its activities. (Tables 3 and 4 on the next pages show IRD’s first- and second-year annual
budgets.) IRD was awarded the agreement because USAID determined its application was
most responsive to the intended objectives of the program and also presented the greatest
overall value.

USAID’s Automated Directives System (ADS) 303.3.12.a states that when negotiating the
award, the agreement officer must review the proposed award budget and perform a cost
analysis. When performing the cost analysis, the officer reviews cost breakdowns and analyzes
data to determine their necessity, reasonableness, and allowability. This helps the agreement
officer determine whether the prospective recipient has a good understanding of the financial
aspects of the program and can perform the grant activities with the amount requested.

According to the cost realism checklist template—a mandatory reference to ADS 300—mission
employees involved in procurement should perform a cost realism analysis because the
applicant may submit unrealistically low offers to win the award. The budget must be as realistic
as possible to be sure adequate funding is available for the program to succeed.

Despite the importance of such analyses, USAID did not perform them sufficiently before
approving the award. Moreover, PDEV had significant problems with unrealistic budgeting and
cost overruns.

Unrealistic Budget. IRD had budget problems in part because of unrealistic expectations about
the program’s scope, operating expenses, and staffing needs.

In June 2012, 7 months after the program began, IRD officials told USAID that implementing
activities in all 101 zones would spread resources too thin. So IRD and USAID decided to divide
the zones into “core” and “noncore”; core zones would receive the full range of activities, and
noncore zones would receive only radio broadcasts. IRD settled on 45 core and 56 noncore
zones, which one USAID official said was still not realistic given the available resources per
zone and the program’s ambitious targets.

IRD also was unrealistic about some of the operating expenses for Burkina Faso, Chad, and
Niger.

	 IRD proposed that all field offices would be colocated and cost-shared with local partners.
   But as of July 2013, only 3 of the 11 offices established at the time were.

	 IRD budgeted $1,500 per month for office rent in the capital of Burkina Faso, but was
   actually paying $3,700 per month.

	 IRD budgeted $400 per month for Internet for the main offices in Burkina Faso and Chad,
   but was paying $3,000 and $8,000 per month respectively. Some USAID and PDEV officials
   in Burkina Faso said IRD was overpaying for Internet.10

	 Although $10,000 was budgeted to equip a radio studio in Burkina Faso, the implementer
   there expected the actual cost to be around $15,000.


10
   We did not have the chance to discuss with program officials whether the Internet cost was reasonable
in Chad.


                                                                                                      8
	 Motorcycles were budgeted for all field offices. But some of the core zones were too far
   away to comfortably visit on motorcycle, and employees could not transport program
   materials to the zones unless they rented a car.

IRD did not estimate the staffing resources needed to implement the program. At the time of the
audit, IRD had 68 more employees on staff or about to be hired than was budgeted for initially,
as shown in Table 2 below.

                                  Table 2. IRD Staffing (Unaudited)*
                                                           Employed or About
Team                        Budgeted                                                Difference
                                                           to Be Hired
 Regional
                                           8                          8                       0
 management**
 Burkina Faso                              27                         41                      14
 Chad                                      34                         63                      29
 Niger                                     40                         65                      25
 Total                                   109                        177                       68
* Table includes both central and field office staff that IRD employed in each county. It does not include

subpartner staff. 

** This team is based in Niger, but it has management duties for the entire region.


Cost Overruns. During the first year, the program spent 69 to 442 percent more than what was
budgeted for several line items, as shown in Table 3 below.

In contrast, IRD spent only 6 percent of what it budgeted for actual program activities and
28 percent for subawards.

                        Table 3. First Year Line Items for Chad and Niger
                                           (Unaudited)*
                                                                  Percent Over or
                      Line Item
                                                                  Under Budget
                      1.  Salaries and wages 	                                 1
                      2.  Fringe benefits 	                                    3
                      3.  Allowances                                          -4
                      13. Consultants                                        69
                      14. Travel, transportation, and per diem             442
                      15. Equipment                                        106
                      16. Other direct costs                               292
                      17. Subawards                                         -72
                      18. Program interventions/activities                  -94
                          Total direct costs                                -40
                      19. Indirect costs                                       3
                          Grand total costs	                                -35
                     * Based on budgets for Chad and Niger only because no
                     program activities took place in Burkina Faso and Mauritania
                     was dropped from the program.

Cost overruns continued in the second year. An analysis of that year’s budget for Burkina Faso,
Chad, and Niger—with 3 months left—showed that the program had already exceeded its


                                                                                                         9
budget for nearly all line items except program interventions, subawards, and equipment shown
in Table 4 below.

                     Table 4. Second Year’s Line Items for Burkina Faso, 

                                 Chad, and Niger (Unaudited) 

                                                                  Percent Over or
                   Line Item                                      Under Budget as
                                                                  of June 2013
                    1. Salaries and wages 	                                         23
                    2. Fringe benefits 	                                            35
                    3. Allowances                                                   18
                    4. Consultants                                                  93
                    5. Travel, transportation, and per diem                        364
                    6. Equipment                                                   -16
                    7. Other direct costs                                          205
                    8. Subawards                                                   -44
                    9. Program interventions/activities                            -80
                         Total direct costs                                        -24
                    10. Indirect costs                                              24
                         Grand total costs	                                        -19
                  * For this analysis, the budget includes the second year budgets
                  for Chad and Niger, and the first year budget for Burkina Faso,
                  because Burkina Faso became operational that year. By using the
                  first year’s budget for Burkina Faso for the analysis, it incorporates
                  additional start-up costs like equipment.

Additionally, IRD had spent its entire 5-year travel budget of $689,000 in little more than a year.
However, the exact amount was unknown since some travel expenditures were inadvertently
allocated to travel instead of the program, possibly overstating actual travel expenditures. IRD
identified this issue and, at the time of the audit, was in the process of making appropriate
adjustments.

According to a USAID official, some of these cost overruns include:

	 Costs associated with the turnover of the entire senior management team, including
   repatriation costs and deployment of personnel on a short-term basis to fill the vacancies.

	 Costs associated with domestic and international travel in the first year by a management
   team that was faced with constant attrition and transition.

	 Costs associated with legal actions and removal and recruitment of large numbers of locally
   hired staff.

	 Costs associated with losing two local implementing partners (discussed on page 12).

	 Equipment and maintenance costs incurred because assets handed over from the
   first PDEV program were in much poorer condition than anyone anticipated.




                                                                                                10
    Costs associated with having to redo some assessments (such as assessing the capacity of
     civil society organizations to tailor technical assistance, or finalizing the selection of core
     target zones for program implementation) in the first year in Niger.

IRD did not inform USAID at any time that it needed to realign the budget. Since IRD’s award is
a cooperative agreement, it is obligated to submit quarterly financial reports listing only the
program’s total expenditures, along with a breakdown by country, without further analysis.

USAID does not oversee line-item expenditures and, unless IRD flags it, USAID would have no
way of knowing that there were problems with the budget. It was not until USAID asked for a
meeting with IRD in February 2013 that IRD officials said they already exceeded the 5-year
travel budget. That was the first sign that the program was having problems with certain line
items. The remaining problems were not disclosed until this audit.

A number of factors contributed to IRD’s budget difficulties. It was overly ambitious with what it
proposed to achieve, given the resources available, and did not perform sufficient analysis to
understand what it would cost to implement this program. IRD management’s failures during the
first year of the program led to cost overruns, increased travel, loss of local partners, and
duplicated efforts. The regional nature of the program also has required a lot of travel to and
from the different countries. The new concept of countering violent extremism has required
additional technical assistance to get the program up and running, and the deteriorating security
conditions have contributed to increased operational costs because IRD was not able to travel
on the ground safely and therefore had to fly more than expected.

IRD also lacked controls to monitor variations between estimated and actual financial
performance. According to IRD’s internal audit reports for each country, the program was not
comparing actual performance or expenditures to the budget to identify and analyze the
variations, as required in the agreement with USAID.11 Moreover, IRD had not even given a
copy of the approved budget to the finance manager in Niger so he could analyze or monitor
expenditures.

USAID contributed to this situation by not performing adequate cost analysis of each country
before it awarded the agreement. Agency procurement staff based in Ghana performed a cost
analysis of IRD’s budget as required, but no one based in Burkina Faso, Chad, or Niger was
significantly involved in it. USAID/West Africa officials provided documentation to show they
consulted other officials in each country about the local compensation plan, but not about office
rent, utilities, Internet, other direct costs, or programmatic line items.

Discussions were under way to realign IRD’s budget, though the realignment had not been
approved as of June 2013. The biggest change would be the reduction of small-scale
construction activities from $11.1 million to $6.5 million to absorb some of the excess costs. This
would in turn reduce the impact attributed to infrastructure activities.

IRD’s unrealistic budgeting and cost overruns could affect the program’s ability to achieve the
expected outputs and goals. The program has spent very little on actual program activities,

11
    The cooperative agreement states that IRD must comply with the Code of Federal Regulations,
Title 22, Part 226.21. This states that U.S. nongovernmental organizations receiving assistance awards
must compare expenditures with the budget and, whenever possible, relate financial information to
performance.




                                                                                                   11
despite being on or over budget for many other line items. To address these concerns, we make
the following recommendations.

   Recommendation 4. We recommend that USAID/West Africa conduct a review of
   International Relief and Development’s systems of budgetary control and liquidity
   management for the program and document the results.

   Recommendation 5. We recommend that USAID/West Africa consult with activity
   managers to confirm that cost estimates for particular items (such as rent and
   equipment) included in the realigned budget reflect current market costs in each of the
   three Peace through Development II countries, and, to the extent possible, verify with
   activity managers that country-level budgets properly include expected costs given
   planned future activities and document the results.

   Recommendation 6. We recommend that USAID/West Africa ask International Relief
   and Development to provide financial reports on a quarterly basis that analyze line-item
   expenditures against the budget and highlight and discuss any significant variations.

Two of Three Local Partners
Discontinued Partnerships With
Implementer
IRD was supposed to implement activities under the third and fourth objectives (“increasing civil
society’s capacity” and “strengthening local government”) through its local partners: Fondation
pour le Développement Communautaire (FDC) in Burkina Faso, Association Lead Tchad (ALT)
in Chad, and Karkara in Niger. The activities involved organizing and building the capacity of
civil society organizations, community-based organizations, and local government through
training programs and community grants; and managing a community-based, youth-led process
for community mapping.

However, during the program’s first year ALT ended its partnership in May 2012, and Karkara
followed in December 2012. Officials from Karkara told the audit team they did so because of
the problems listed below.

	 IRD did not inform Karkara when it won the award. Instead Karkara officials found out about
   it through the local newspaper.

	 In a December 2011 meeting, IRD promised Karkara that it would prepare a formal
   agreement within 10 days. However, this never happened despite Karkara’s repeated
   requests for a contract. So Karkara worked under a letter of authorization dated January 25,
   2011, which authorized it to incur expenses before subfinancing was available. But Karkara
   was hesitant to incur expenses without an actual contract in place.

   Karkara worked with IRD to prepare a 5-year budget for its activities, which was submitted
   as part of the proposal to USAID. But IRD asked Karkara to work on a month-to-month
   budget, which made it difficult to plan ahead for program activities.

	 Karkara officials said they felt IRD used them to win the award.




                                                                                              12
Karkara wrote a letter to the IRD country director on October 30, 2012, informing him of its plans
to discontinue the partnership on December 31, 2012. According to Karkara, IRD did not
respond until January 2013, by which time Karkara had already given up.
We did not have a chance to meet with ALT. According to a letter it sent to IRD’s acting country
director in May 2012, ALT discontinued the partnership for the following reasons.

	 IRD did not involve ALT seriously in preparing for PDEV.

	 Activities leading up to the launch of PDEV consumed a lot of time and resources.

	 IRD did not provide training on the tools and methods ALT was supposed to use in
   implementing PDEV activities, which created problems with communication and
   misunderstanding.

	 IRD’s management approach did not meet ALT’s expectation (although ALT did not say
   what it expected), and ALT officials did not believe it was a partnership. IRD’s working
   framework would not allow ALT to achieve its goals, and ALT did not want to work in a state
   of uncertainty.

The audit team met with officials from FDC, the local partner in Burkina Faso, to understand
their relationship with IRD. Though FDC had not discontinued its partnership, the officials there
were frustrated by IRD’s noncompliance with one of the terms of the agreement; as of
January 2, 2013, IRD was to make a start-up payment of up to $50,000 representing the
first installment of the total budget. All subsequent payments would be based on requests for
advance funds, subject to verification by IRD. The FDC officials said they never received this
start-up money. Instead they received money only after they submitted invoices for costs
already incurred. They added that this put them in debt because they did not have enough
money for the start-up costs.

We discussed these issues with IRD officials and gave them the documents from the local
partners. We gave them a month to provide information that could refute the partners’
statements, but they did not.

By losing two of three local partners, the program had not implemented many activities under
the third and fourth objectives. Though IRD did not make any disbursements to ALT, it paid
Karkara $67,182, which is now lost.

IRD’s current plan is to have three local partners instead of one implement activities in Chad
and Niger. As of May 2013, the documentation we found stated that two in Chad had been
“formalized,” but no partners had been identified in Niger. To address these problems, we make
the following recommendations.

   Recommendation 7. We recommend that USAID/West Africa require International
   Relief and Development to hire local partners and comply with the terms of the
   subagreements.

   Recommendation 8. We recommend that USAID/West Africa require International
   Relief and Development to implement a plan to provide adequate oversight, support, and
   training to local partners.




                                                                                               13
Majority of Data Tested Were
Inadequately Supported or
Incorrectly Reported
According to ADS 203.3.11.1, high-quality data are crucial for performance monitoring and for
credible reporting. Data should be valid, accurate, precise, reliable, and timely because program
managers rely on them to analyze whether the desired results are being achieved and whether
implementation is on track. Data that do not meet these standards could lead managers to
make poor decisions.

Most of the PDEV data tested were not adequately supported or correctly reported. Table 5
summarizes our data validation results.

                       Table 5. Reported Versus Actual Results (Audited)
                                                        November 2011 to           October 2012 to
                     Indicator                           September 2012              March 2013
                                                       Reported   Actual         Reported    Actual
   Number of youths who have received vocational
1                                                             0         NT           38            0
   training
   Number of individuals trained in youth
2                                                           57          51          222*†         151
   leadership, participatory theater, and multimedia
    Number of hours of countering violent extremism
3 material produced by PDEV and broadcast and             532.5       417.5          41.3        652.5
   rebroadcast by PDEV-supported radio stations
4 Number of religious leaders trained                       28          NT          109*          64
   Number of staff members trained from civil
5                                                           23           0           36           54
   society organizations
    Number of people attending PDEV-supported
6                                                       5,436            0            0           NT
    community events
   Number of community development projects
   successfully completed with PDEV assistance
7                                                             0         NT           7             0
   that respond to community development plans
   and/or expressed community needs
NT = not tested.
* The audit team did not have time to review the second year’s data for Chad; thus these figures are
based on data reported for Burkina Faso and Niger.
†
  Due to discrepancies in IRD’s data sheets, auditors selected the figure that program officials said was
most appropriate (i.e., 35 in Burkina Faso and 187 in Niger).

None of the indicators tested could be validated. IRD did not have any supporting
documentation to account for the 5,436 people who reportedly attended a PDEV-supported
event in the first year. Nor did it have any documentation to account for the 38 youths who
reportedly received vocational training during the first part of the second year.

IRD overreported the number of religious leaders trained in the second year in part because
some officials were reporting results for activities that were implemented after the March 2013
cutoff date. Conversely, it appears that IRD was underreporting results for the number of hours
that PDEV radio programs were broadcast, although we could not determine why this
happened. Because of discrepancies in documents along with the lack of a centralized data
management system, it is difficult to say with certainty the extent to which data may be over- or
underreported.


                                                                                                      14
PDEV’s data management problems occurred primarily because IRD did not have a regional
M&E director for the first 14 months of the program. Even though this position is listed as a high
priority in the program’s organizational chart, IRD did not hire someone for it until January 2013,
and he left a few months later. A replacement was hired in May 2013.

In Chad and Niger, there was high turnover in M&E positions, and at the time of the audit IRD
had not yet filled all of them. In Burkina Faso, IRD had not hired M&E officers since the
beginning of the program.

Because the M&E aspect of the program was overlooked, there was no centralized M&E system
to manage the data until May 2013, and indicator definitions were only in English. Since not all
locally hired staff were fluent in English, the definitions could be misinterpreted and data could
be measured and reported incorrectly.

USAID/West Africa performed a data quality assessment in Niger in October 2012 for certain
indicators. But the assessment was not comprehensive because of the lack of data available for
review and because IRD’s data collection system, which had just been developed, was not yet
implemented. USAID planned to conduct another assessment once the M&E system was
functional.

Because of the lack of sufficient supporting documentation and inaccuracy of some of the
reported results, the data may not be reliable. Without reliable data, it is difficult to accurately
assess IRD’s performance and determine whether the program is achieving its intended
objectives. Moreover, the data cannot be used to make informed decisions. To address these
problems, we make the following recommendations.

   Recommendation 9. We recommend that USAID/West Africa work with International
   Relief and Development to fill vacant monitoring and evaluation positions with qualified
   staff and provide hiring documentation.

   Recommendation 10. We recommend that USAID/West Africa conduct a thorough
   follow-on data quality assessment of Peace through Development II activities during the
   first quarter of the 2014 calendar year once its monitoring and evaluation system has
   been fully implemented and tested.

Implementer Did Not Apply Internal
Controls, Policies, and Procedures
According to IRD’s program operations manual for start-up activities, every employee is
responsible for complying with the IRD code of business ethics and conduct, standards and
policies, terms and conditions of award agreements, and donor and host government laws and
regulations. The manual outlines procedures for starting program operations, including
recruiting local staff and providing employment contracts. It reviews “lessons learned” by IRD,
such as the importance of establishing and providing staff with the basic protocols to follow
while procuring equipment, supplies, and services; establishing inventory procedures within the
first 4 weeks to protect property; and implementing a document retention system that meets
donor requirements. It also lists some mistakes to avoid, such as not training field personnel on
donor and IRD regulations and compliance, and not setting up procedures to use from the onset
of a program.




                                                                                                 15
The policies and procedures in the manual serve as internal controls. They are crucial to
protecting an organization’s assets, and to prevent and detect errors and fraud. Despite the
importance of internal controls, IRD’s staff members did not apply the organization’s policies
and procedures. IRD’s internal audit division reviewed the internal controls in Burkina Faso,
Chad, and Niger, and found a number of control weaknesses during the program’s first year.

	 There were no proper HR systems in all three countries. The audit report for Chad found
   that some employees were not qualified for their jobs.

	 There were problems with planning and budgeting in all three countries; employees were
   not comparing actual costs to the budget to identify and analyze variations.

	 The program lacked proper procurement systems in Chad and Niger; rules and regulations
   were not followed, and the supporting documentation was insufficient.

	 There were insufficient controls in Chad and Niger for travel. In addition, Chad lacked
   oversight of the procurement and payment process.

	 Subpartners were incurring costs without proper supporting documentation and did not
   adequately plan for their activities.

OIG testing found the following internal control weaknesses:

	 There was insufficient documentation to support hiring personnel in Niger in the first year
   and Burkina Faso in the second. There was no evidence for the 29 employees hired in Chad
   before March 2012 to indicate that the positions were advertised and that people competed
   for them fairly. A former program employee said staffs in Chad and Niger were not selected
   competitively.

	 IRD staffs in Niger were operating without contracts in the program’s first year.

	 There were problems with procurement in Niger in the first year.

	 All three countries had disorganized management structures, and they were redone
   completely in November 2012. Previously, staff did not understand roles and responsibilities
   or chains of command. One employee we interviewed was moved around within the
   organization without formal documentation of these changes or of his new roles and
   responsibilities.

These internal control weaknesses occurred mainly because IRD lacked an experienced,
sufficiently manned team from headquarters to start the program. Nor did it have the senior
management team in place in a timely manner. The chief of party and deputy did not arrive until
January and April 2012, respectively. The lack of internal controls made program funds
susceptible to fraud, waste, and abuse. It also hurt staff morale and program performance.

In an internal audit report, IRD acknowledged that it needed to conduct regular, on-the-job
training related to policies and procedures, donor regulations, business ethics, and compliance.
Therefore, we make the following recommendation.




                                                                                             16
   Recommendation 11. We recommend that USAID/West Africa follow up with
   International Relief and Development to confirm in writing that the specified training from
   the internal auditors’ report has been provided and that the program has implemented a
   plan to address these training needs regularly.

Start-up Activities Were Not
Completed On Time
After the cooperative agreement was signed in November 2011, programs in Burkina Faso,
Chad, and Niger were supposed to start simultaneously. Before the program could work with
target communities, it first needed to finalize the areas (or “target zones”) where it would work. It
also needed to finalize its PMP and M&E plan. According to Section 3.b of the agreement, this
was to be done in consultation with USAID within 45 days of the award. The agreement also
shows that the baseline study, which would provide a benchmark for evaluating program impact,
was supposed to be completed in February 2012. Additionally, IRD was to set up offices in each
country: a central office in the capital and a number of field offices in remote areas.

However, these activities were not completed on time, as discussed below.

Start-up in Burkina Faso. Although all countries were supposed to start at the same time, the
program in Burkina Faso was not operational until the second year. The initial delay was due to
differences between IRD and the U.S. Ambassador in Burkina Faso. IRD proposed hiring a
Nigerien to be the country director, but the Ambassador required it to hire someone local. At the
time of the audit, IRD still did not have a dedicated HR manager to oversee hiring, and
26 positions were open—including the M&E officer.

Finalized Target Zones. The program spent the first year choosing target zones in Chad and
Niger and a few months in Burkina Faso. USAID officials blamed these delays on IRD’s poor
management of the process and insufficient guidance to staff in selecting the zones. In Burkina
Faso the process was delayed because IRD needed the government to participate in the
selection, which was not possible until local elections were complete and municipal councils
were installed by mid-February 2013.

Finalized PMP and M&E Plan. Finalizing these plans took 1 year and numerous revisions
mainly because IRD had not hired a senior regional M&E manager to oversee the process.

Baseline Study. As of June 2013, results from the baseline study had not been finalized for
Chad or Niger—more than 1 year later than planned—and the study had not yet started in
Burkina Faso.

Field Offices. Field offices were supposed to be set up in March 2012 in Chad and Niger, and
in February 2013 in Burkina Faso.

At the time of the audit, however, there were no field offices in Burkina Faso. Offices in Niger
were established in August 2012. As of March 2013, four of five offices in Chad were open, and
the fifth was still waiting for its lease to be finalized.

Not all of the field offices in Chad were operational. The office in Ati did not have the equipment
it needed to implement the program, and it did not have electricity or a generator. The four
employees shared one laptop with a battery that lasted only 1 hour. So the staff would often go



                                                                                                  17
to the World Food Programme’s (WFP’s) office to use electricity, the Internet, and scanner,
which PDEV officials said frustrated WFP officials. For 2 months PDEV employees conducted
meetings on the floor because they did not have desks or chairs. They did not have a petty cash
system to buy office supplies and sometimes had to use their own pens and paper. The team
documented all of these problems in monthly reports and asked the central office for assistance,
but that office was slow to respond.

IRD’s delay in setting up field offices was tied to the delay in finalizing target zones. However,
the delay in getting field offices operational was due to lack of attention by IRD, and officials
there said they did not have a good explanation for why this happened.

As a result of these delays, the program completed only 26 percent of the planned activities for
the first year and was not on track to complete those planned for the second. However, because
of the remediation measures prompted by USAID and already being taken by IRD to expedite
implementation—such as stabilizing the senior management team, applying internal controls,
and employing effective project management tools—we are not making any recommendations.

Part of Training Did Not Take Place
From December 29, 2012, to January 2, 2013, the Salam Institute for Peace and Justice was
supposed to conduct a 5-day training for 24 imams to reinforce plurality, tolerance, and
nonviolence in Chad. During the training, participants also were supposed to learn the skills they
needed to train 480 other imams in community conflict resolution, peace building, and
leadership. According to the scope of work for this activity, Salam was to coordinate with Chad’s
Supreme Council for Islamic Affairs to support these follow-on activities.

Salam carried out the training as planned, but as of April 2013, the imams had not trained the
480 others. The imam we interviewed who participated in this training found it to be extremely
useful and was eager to share what he had learned with others, but was disappointed that he
hadn’t been able to because he did not have the funds.

Part of the problem is that Salam’s contract with IRD does not mention follow-on activities, and
they are not covered in the budget. Officials at the institute said they understood that these
follow-on activities would be funded through IRD’s community grants, but were not clear on the
process for getting the grants. They asked IRD about this in January after the training, but did
not get clarification until the end of April.

Additionally, Salam officials said that in response to pressure from IRD and USAID to show
results, they were asked to implement a series of back-to-back activities, which strained their
capacity to plan for follow-on activities.

Four months had passed since the initial training, and the imams might not have retained all of
the information they need to share what they learned with others. As a result, the activity may
not achieve the desired objective. To make sure this does not happen with other follow-on
activities, we make the following recommendation.

   Recommendation 12. We recommend that USAID/West Africa require International
   Relief and Development to clarify and document responsibilities and procedures for
   activities that follow on from Salam Institute training workshops and curriculum
   development activities, clearly setting out the roles and responsibilities of all



                                                                                               18
stakeholders, including the institute, and allocating appropriate financial resources for
those efforts.




                                                                                            19
EVALUATION OF MANAGEMENT
COMMENTS
In response to the draft report, USAID/West Africa officials agreed with all recommendations
and provided action plans and target dates for Recommendations 1, 4, 5, 6, 7, 8, 10, and 11.
They provided adequate support demonstrating corrective actions for Recommendations 2, 3, 9,
and 12. Consequently, we acknowledge management decisions on all 12 recommendations and
determine that final action has been taken on 4.

Recommendation 1. Mission officials said they intend to work with IRD to develop a
comprehensive corrective action plan to improve how it tracks performance, milestones, and
timelines, and how it monitors the program’s progress by April 30, 2014. As a result, we
acknowledge that the mission made a management decision on Recommendation 1.

Recommendation 2. Mission officials established a monitoring plan for activity managers and
updated the designation letters to reflect this new responsibility. In addition, the mission adopted
standardized site visit monitoring protocols and forms. Mission officials included the activity
manager in planning project activities, and IRD gave the manager program reports and a work
plan with dates, budgets, and targets, and direct links to the program’s performance
management plan. Therefore, Recommendation 2 will be closed upon issuance of this report.

Recommendation 3. Mission officials required IRD to select local partners to carry out third and
fourth objective activities. Accordingly, IRD finalized subawards with local partners to perform
these activities in Niger and Chad on October 2013, and February 15, 2014, respectively. As a
result, this recommendation will be closed upon issuance of this report.

Recommendation 4. Mission officials said they intend to conduct a limited scope review of
IRD’s budget and financial and liquidity management systems by June 30, 2014. As a result, we
acknowledge that the mission made a management decision on Recommendation 4.

Recommendation 5. Mission officials agreed to consult with activity managers during the
program’s budget realignment process to make sure it reflects current market costs. The
mission’s target date for final action is April 30, 2014. As a result, we acknowledge that the
mission made a management decision on Recommendation 5.

Recommendation 6. Mission officials asked IRD to provide quarterly financial reports that
analyze line-item expenditures against the budget, and highlight and discuss any significant
variations. They said they plan to complete final action after reviewing the next quarterly report.
The target date for final action is April 30, 2014. Therefore, we acknowledge that the mission
made a management decision on Recommendation 6.

Recommendation 7. Mission officials required IRD to hire local partners and verify its
compliance with the terms of the sub-agreements after receiving the next quarterly report. Thus,
the target date for final action is April 30, 2014. As a result, we acknowledge that the mission
made a management decision on Recommendation 7.




                                                                                                 20
Recommendation 8. Mission officials asked IRD to provide additional oversight, support, and
training to local partners. In response, IRD officials agreed to train local partners in the
program’s third year and to provide evidence of the training by March 31, 2014. As a result, we
acknowledge that the mission made a management decision on this recommendation.

Recommendation 9. Mission officials provided contracts for three M&E employees whom IRD
hired to work in Burkina Faso, Chad, and Niger. As a result, this recommendation will be closed
upon issuance of this report.

Recommendation 10. Mission officials agreed with this recommendation and plan to conduct a
data quality assessment by March 31, 2014. As a result, we acknowledge that the mission
made a management decision on Recommendation 10.

Recommendation 11. Mission officials asked IRD to confirm in the quarterly progress report
that the specified training from the internal auditors’ report has been provided and that the
program had implemented a plan to address training needs regularly. The target date for final
action is March 31, 2014. As a result, we acknowledge that the mission made a management
decision on Recommendation 11.

Recommendation 12. Mission officials required IRD to provide clarification and adequately
document plans for activities that follow from Salam Institute training workshops and curriculum
development activities. IRD did so. Consequently, Recommendation 12 will be closed upon
issuance of this report.




                                                                                             21
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
They require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions in accordance with our audit
objective. We believe that the evidence obtained provides that reasonable basis.

The original scope of the audit was focused on PDEV activities in Chad, but was later expanded
to the other countries under the program, Burkina Faso and Niger. The purpose of this audit
was to determine whether USAID/West Africa’s activities were on track to increase resiliency to
violent extremism in at-risk communities. The audit focused on PDEV activities from program
inception (November 14, 2011) until March 31, 2013, when validating data and reviewing
reported results. We also examined activities through June 30, 2013, to assess additional
progress that had been made. As of March 31, 2013, USAID/West Africa obligated $25.7 million
and disbursed $10.4 million for PDEV activities. In the 3 months that followed, an additional
$4.2 million was disbursed. Thus, the total amount audited was $14.6 million.

We met with USAID officials in Burkina Faso, Chad, Ghana, and Niger. We interviewed
employees with IRD, Salam Institute in Chad and the United States, Search for Common
Ground (Chad), Equal Access (Burkina Faso), FDC (Burkina Faso), and Karkara (Niger). We
met with U.S. Ambassadors and deputy chiefs of missions and local government officials in
each country to get their perspectives on the program. We interviewed youths, religious leaders,
and civil society organizations that received training; youth groups that received PDEV grants;
employees at radio stations broadcasting PDEV shows; community reporters and listening
clubs12; community action committees formed by PDEV; schools that received supplies; and
employees at a health center that received supplies through IRD’s cost-share contribution.

We conducted audit fieldwork from March 25, 2013, through July 26, 2013, and visited the
following locations: Ouagadougou and Ouahigouya, Burkina Faso; Ati and N’Djamena, Chad;
Accra, Ghana; and Niamey and Tillabéri, Niger. Sites visited in Burkina Faso, Chad, and Niger
were judgmentally selected based on proximity to the capital, the variety of activities
implemented, and security concerns restricting travel.

We reviewed applicable laws and regulations and USAID policies and procedures. We obtained
an understanding of and assessed the following significant internal controls: the program’s
management structure; contracting mechanisms; HR, procurement, budget, and data
management systems; and monitoring and evaluation of program activities. This meant
interviewing program stakeholders and reviewing designation letters for the agreement officer’s
representatives and activity managers, partner agreements and subagreements, progress
reports, work plans, PMPs, data quality assessments, PDEV database, trip reports, HR
personnel files, procurement records, budgets, and expenditures. Additionally, we examined the
mission’s fiscal year 2012 annual self-assessment of management controls, which it is required

12
  Because not everyone in a community speaks the same language, a member who understands a
certain language translates the broadcast.



                                                                                             22
                                                                                     Appendix I


to perform to comply with the Federal Managers’ Financial Integrity Act of 1982, to determine
whether the assessment cited any relevant weaknesses.

In validating program data, we judgmentally selected output indicators for testing. We chose
indicators with reported results and that were most indicative of the program’s objectives. For
the first year, we tested three indicators in Chad and four in Niger; no data were tested in
Burkina Faso because no results were reported that year. For the second year (October 2012 to
March 2013) we tested two indicators in Burkina Faso and six in Niger; we did not have time to
test data in Chad.

Methodology
To answer the audit objective, we evaluated the mission’s management and oversight of the
PDEV program, the performance of implementing partners, and the effectiveness of the
activities being implemented. We reviewed the program documents, laws, regulations, policies,
and procedures as listed in the scope. We tested program data to assess the quality of reported
results and internal controls related to budgeting, HR, procurement, and data management. We
met with USAID mission officials in Accra, Ghana, to gain an understanding of the program
activities and travelled to Burkina Faso, Chad, and Niger to meet with the USAID activity
managers, implementing partners, and other key stakeholders.

We performed site visits to see whether activities were being implemented, monitored, and
evaluated as required. Site visits were done in the following locations:

Burkina Faso: Ouagadougou (capital), Ouahigouya (in Ouahigouya Department) 

Chad: N’Djamena (capital), Ati (in Batha Ouest Department) 

Niger: Niamey (capital), Tillabéri (in Tillabéri Department) 


In selecting a sample of activities to visit, we chose ones that were either in progress or
completed, representative of the four objectives, and located in areas where other program
activities were being implemented. During these visits, we reviewed program documentation
and program-funded supplies, and interviewed PDEV employees, local government officials,
and beneficiaries.

The results and overall conclusions related to this testing were limited to the items tested and
cannot be projected to the entire audit universe. However, we believe that our work provides a
reasonable basis for our conclusions.




                                                                                             23
                                                                                  Appendix II



MANAGEMENT COMMENTS 

	



                                                                                                	
	
	
	
DATE:		       March	7,	2014	
	
TO:		 	       Regional	Inspector	General/Dakar,	Abdoulaye	Gueye		
	
FROM:		       USAID/West	Africa,	Mission Director,	Alex	Deprez									/s/	
	
SUBJECT:		    Mission	Response	to	Audit	of	USAID/West	Africa’s	Peace	through	
              Development	II	Program	(Report	No.	7‐625‐13‐00X‐P)	
	
	
USAID/West	Africa	appreciates	the	opportunity	to	provide	comments	on	the	draft	audit	
report	of	USAID/West	Africa’s	Peace	Through	Development	II	Program	(Report	No.	7‐625‐
13‐00X‐P).		The	Mission	agrees	with	recommendations	1	through	12	and	provides	
responses	and	proposed	corrective	actions	for	recommendations	1,	4,	5,	10	and	11.		The	
Mission	requests	closure	of	recommendations	2,	3,	6,	7,	8,	9	and	12	on	the	basis	of	
corrective	measures	completed	by	USAID	and	International	Relief	and	Development	(IRD).	
	
        Recommendation	1.	We	recommend	that	USAID/West	Africa	implement	a	corrective	
        action	plan	that	describes	the	initiatives	to	be	implemented	to	improve	performance,	
        the	milestones	and	timelines,	the	monitoring	process,	and	the	remedial	actions	that	
        will	be	taken	if	the	program	is	not	making	progress	as	planned.	
	
Management	response:		USAID/WA	agrees	with	the	recommendation	that	a	corrective	
action	plan	should	be	established.		In	the	first	half	of	PDEV	II’s	second	year,	IRD	began	
corrective	action	to	address	inadequate	systems.		During	the	second	half	of	Year	2,	
USAID/WA	commissioned	a	performance	evaluation	of	PDEV	II	to	better	understand	PDEV	
II’s	underperformance.		USAID/WA	shared	the	evaluation’s	findings	with	PDEV	II	
management	and	IRD	incorporated	the	evaluation’s	recommendations	into	on‐going	
corrective	actions	in	PDEV	II’s	financial,	monitoring,	and	management	systems.		In	October	
2013,	IRD	Senior	Management	met	with	USAID/West	Africa	in	Ghana and	presented	its	
ongoing	and	planned	corrective	actions.		IRD	provided	details	on	its	establishment	of	more	
effective	management,	financial,	and	reporting	systems	in	all	PDEV	II	offices	and	sub‐
offices,	including	the	training	of	pertinent	staff.			
	



                                                                                          24
                                                                                Appendix II


PDEV	II	and	USAID/WA	have	also	been	working	together	to	improve USAID/WA’s	ability	to	
monitor	PDEV	II’s	performance	and	progress	through	new	tools	and	practices	including:	
(1)	PDEV	II	is	now	providing	monthly	reports	to	USAID/WA,	in	addition	to	the	quarterly	
and	annual	reporting	requirements	under	the	cooperative	agreement;	(2)	The	PDEV	II	Year	
3	work	plan	now	includes	dates,	budgets,	targets,	and	direct	linkages	to	the	PDEV	II	PMP;	
(3)	More	frequent	and	regularized	meetings	between	USAID	PDEV	II	activity	managers	and	
PDEV	II	Country	Directors	and	between	the	AOR	and	the	PDEV	II	COP	and	DCOP;	and	(4)	
more	frequent	site	visits	by	activity	managers	and	the	AOR.	
	
Corrective	action:		USAID/WA	will	continue	working	with	PDEV	II	to	develop	a	
comprehensive	corrective	action	plan	to	improve	performance,	milestone	and	timeline	
tracking,	and	the	monitoring	process.		The	plan	will	incorporate	the	new	tools	and	
practices	described	under	the	“Management	Response”	section	above.		The	plan	will	also	
include	remedial	actions	to	be	taken	if	the	program	is	not	making	progress	as	planned.		As	
stated	above,	USAID/WA	and	PDEV	II	have	already	taken	steps	towards	developing	such	a	
corrective	action	plan.			
	
Target	Date:		USAID/WA	will	establish	a	comprehensive	corrective	action	plan	by	April	30,	
2014.		USAID/WA	will	monitor	compliance	with	the	comprehensive	action	plan	each	
quarter	until	the	end	of the	project.	
	
       Recommendation	2.	We	recommend	that	USAID/West	Africa	implement	a	plan	to	
       increase	activity	managers’	monitoring	of	the	program	to	measure	and	verify	progress	
       against	performance	milestones.	
	
Management	Response	and	Corrective	Action:		In	line	with	the	recommendation,	
USAID/WA	has	established	an	activity	manager	monitoring	plan	and	has	modified	and	
updated	PDEV	II	activity	managers’	designation	letters	to	reflect	activity	managers’	more	
defined	and	structured	role.	USAID/WA	has	begun	implementing	a	plan	to	increase	activity	
manager	monitoring	of	PDEV	II	to	measure	and	verify	progress	against	performance	
milestones.		USAID/WA	has	adopted	standardized	site	visit	monitoring	protocols,	including	
a	minimum	of	three	site	visits	per	quarter	and	site	visit	reporting	forms.		IRD	and	the	AOR	
are	now	providing	activity	managers	with	PDEV	II	monthly,	quarterly,	and	annual	reports	
and	the	PDEV	II	Annual	Work	Plan,	which	includes	dates,	budgets,	targets,	and	direct	
linkages	to	the	PDEV	II	PMP.		IRD	will	begin	providing	activity	managers	with	monthly	
milestone	and	budget	trackers.		Activity	Managers	are	also	now	included	in	the	planning	of	
project	activities	in	order	to	enhance	their	knowledge	of	such	activities	and	better	inform	
their	monitoring.	With	these	tools	and	protocols	in	place,	activity	managers’	monitoring	of	
PDEV	II	should	improve	significantly	both	in	regards	to	quantity	and	quality.		
	
Closure	Request:		On	this	basis,	we	request	concurrence	that	final	action	has	been	taken	
and	that	the	recommendation	be	closed	upon	issuance	of	the	final	audit	report.	
	
       Recommendation	3.	We	recommend	that	USAID/West	Africa	require	International	
       Relief	and	Development	to	select	local	partners	in	Chad	and	Niger	to	carry	out	
       activities	for	the	third	and	fourth	objectives.	


                                                                                         25
                                                                                    Appendix II


	
Management	Response	and	Corrective	Action:		IRD	has	selected	and	been	utilizing	a	
local	partner	in	Niger	to	carry	out	PDEV	II	activities	for	the	third	and	fourth	program	
objectives	since	October	2013.		In	February	2014,	PDEV	II	finalized	its	agreement with	a	
local	partner	in	Chad	to	carry	out	activities	for	the	third	and fourth	program	objectives.			
	
Closure	Request:		On	this	basis,	we	request	that	the	recommendation	be	closed	upon	
issuance	of	the	final	audit	report.	
	
        Recommendation	4.	We	recommend	that	USAID/West	Africa	conduct	a	review	of	
        International	Relief	and	Development’s	systems	of	budgetary	control	and	liquidity	
        management	for	the	program	and	document	the	results.	
	
Management	response:		USAID/WA	agrees	with	the	recommendation	to	conduct	a	review	
of	IRD’s	budgetary	control	and	liquidity	management.		In	Year	2,	IRD	implemented	a	
CostPoint	accounting	system	for	PDEV	II	which	addresses	strengthening	budgetary	control	
and	liquidity	management,	among	other	controls.		IRD	has	provided	initial	and	refresher	
training	in	CostPoint	to	all	finance	and	procurement	staff.		CostPoint	also	enables	IRD	to	
provide	detailed	monthly,	quarterly,	and	annual	expenditure	reports	to	the	AOR	and	
activity	managers.		IRD is	in	the	process	of	hiring	an	IRD	headquarters‐based	staff	member	
to	support	PDEV	II	full‐time	on	budgetary	control	and	liquidity	management.	
		
Corrective	action:		USAID/WA	Financial	Management	Office	will	conduct	a	limited	scope	
review	of	IRDs	budget,	financial,	and	liquidity	management	systems.	
	
Target	Date: To	be	completed	by	June	30,	2014.			
	
        Recommendation	5.	We	recommend	that	USAID/West	Africa	consult	with	activity	
        managers	to	confirm	that	cost	estimates	for	particular	items	(such	as	rent	and	
        equipment)	included	in	the	realigned	budget	reflect	current	market	costs	in	each	of	the	
        three	Peace	Through	Development	II	countries,	and,	to	the	extent	possible,	verify	with	
        activity	managers	that	country‐level	budgets	properly	include	expected	costs	given	
        planned	future	activities	and	document	the	results.	
	
Management	response:		USAID/WA	agrees	with	the	recommendation	that	activity	
managers	be	consulted	during	the	PDEV	II	budget	realignment	process	to	ensure	that	the	
realigned	budget	reflects	current	market	costs	in	each	of	the	three	PDEV	II	countries.	
	
Corrective	action:		USAID/WA	will	consult	with	activity	managers	during	the	PDEV	II	
budget	realignment	process	to	ensure	that	the	realigned	budget	reflects	current	market	
costs	in	each	of	the	three	Peace	Through	Development	II	countries,	and	will	verify with	
activity	managers	that	country‐level	budgets	properly	include	expected	costs	given	
planned	future	activities.		USAID/WA	will	also	document	the	results	of	such	consultations.	
	
Target	Date:		These	consultations	with	activity	managers	will	be	documented as	part	of	
the	current	budget	realignment	process,	which	has	a	target	completion	date	of April	30,	


                                                                                             26
                                                                                     Appendix II


2014.		Additional	consultations	will	occur	in	the	event	of	future	budget	realignments	until	
the	end	of	the	project.	
        	
        Recommendation	6.	We	recommend	that	USAID/West	Africa	ask	International	Relief	
        and	Development	to	provide	financial	reports	on	a	quarterly	basis	that	analyze	line‐
        item	expenditures	against	the	budget	and	highlight	and	discuss	any	significant	
        variations.	
	
Management	Response	and	Corrective	Action:		USAID/WA	has	requested	IRD	as	part	of	
the	March	31,	2014	quarterly	progress	report	to	begin	providing	line‐item	expenditure	
reports.		This	information	will	be	used	to	track	and	compare	actual	expenditures	against	
budgeted	expenditures.		However,	USAID/WA	notes	that	it	is	constrained	in	what	it	can	
require	of	IRD	by	the	limitations	of	the	Cooperative	Agreement	between	the	two parties.		
Nevertheless,	IRD	has	already	begun	providing	USAID/WA	with	quarterly	financial	reports	
that	display	the	progress	of	planned	activities,	including	their	associated	costs.		This	has	
improved	USAID/WA	tracking	and	monitoring	of	activity	progress	and	their	associated	
budgeted	costs.	
	
Closure	Request:		USAID/WA	expects	IRD	to	comply	with	this	request	in	the	next	PDEV	II	
quarterly	report	due	April	30,	2014.	On	this	basis,	we	request	concurrence	that	final	action	
has	been	taken	and	that	the	recommendation	be	closed	upon	issuance	of	the	final audit	
report.	
	
        Recommendation	7.	We	recommend	that	USAID/West	Africa	require	International	
        Relief	and	Development	to	hire	local	partners	and	comply	with	the	terms	of	the	sub‐
        agreements.	
	
Management	Response	and	Corrective	Action:		As	noted	under	Recommendation	3,	IRD	
has	selected	and	been	utilizing	a	local	partner	in	Niger	to	carry	out	PDEV	II	activities	for	the	
third	and	fourth	program	objectives	since	October	2013.		In	February	2014,	PDEV	II	
finalized	its	agreement	with	a	local	partner	in	Chad	to	carry	out	activities	for the	third	and	
fourth	program	objectives.		USAID/WA	has	requested	from	IRD	documentation	of	full	
compliance	with	the	terms	of	its	sub‐agreements,	and	IRD	has	agreed	to	provide	any	
available	documentation.			
	
Closure	Request:		USAID/WA	expects	that	IRD	will	state	how	it	is	complying	with its	sub‐
awards	under	PDEV	II	in	the	next	PDEV	II	quarterly	report,	which	is	due	April	30, 2014.	On	
this	basis,	we	request	concurrence	that	final	action	has	been	taken	and	that	the	
recommendation	be	closed	upon	issuance	of	the	final	audit	report.	
	
        Recommendation	8.	We	recommend	that	USAID/West	Africa	require	International	
        Relief	and	Development	to	implement	a	plan	to	provide	adequate	oversight,	support,	
        and	training	to	local	partners.	
	
Management	Response	and	Corrective	Action:		In	response	to	USAID/WA’s	request,	IRD	
has	developed	and	is	implementing	a	plan	to	provide	additional	oversight,	support,	and	


                                                                                              27
                                                                                    Appendix II


training	to	local	partners.		During	a	presentation	to	USAID/WA	on	October	7,	2013,	IRD	HQ	
senior	management	and	the	PDEV	II	Chief	of	Party	agreed	to	train	PDEV	II	local	partners	in	
grants	processes,	finance,	administration,	monitoring	and	evaluation,	and	general reporting	
in	year	three	of	PDEV	II	and	provide	a	plan	detailing	such	training.		IRD has	completed	
initial	training	on	these	subjects	with	its	local	partners	and	will	continue	providing	follow‐
on	training	in	line	with	their	training	plan.		IRD	has	begun	working	side‐by‐side	with	its	
Burkina	and	Nigerien	partners	in	a mentorship	role,	and	has	plans	to	do	the	same	with	its	
newly‐awarded	Chadian	partner.			
	
Closure	Request:		USAID/WA	expects	IRD	to	complete	training	by	March	31,	2014.	On	this	
basis,	we	request	concurrence	that	final	action	has	been	taken	and	that	the	
recommendation	be	closed	upon	issuance	of	the	final	audit	report.	
	
         Recommendation	9.	We	recommend	that	USAID/West	Africa	work	with	International	
         Relief	and	Development	to	fill	vacant	monitoring	and	evaluation	positions	with	
         qualified	staff	and	provide	hiring	documentation.	
	
Management	Response	and	Corrective	Action:		During	the	second	half	of	PDEV	II	Year	2,	
IRD	completed	hiring	of	all	monitoring	and	evaluation	staff,	including	the	Monitoring	and	
Evaluation	Regional	Director.		IRD	revamped	its	monitoring	and	evaluation	tools,	
templates,	and	internal	reporting	guidelines.		IRD’s	Regional	Monitoring	and	Evaluation	
Director	and	the	IRD	Senior	Monitoring	and	Evaluation	Officer	have	trained	all	monitoring	
and	evaluation	staff	on these	new	tools.			
	
Closure	Request:		Based	on	this,	we	request	concurrence	that	final	action	has	been	taken	
and	that	the	recommendation	be	closed	upon	issuance	of	the	final	audit	report.	
	
         Recommendation	10.	We	recommend	that	USAID/West	Africa	conduct	a	thorough	
         follow‐on	data	quality	assessment	of	Peace	Through	Development	activities	during	the	
         first	quarter	of	the	2014	calendar	year	once	its	monitoring	and	evaluation	system	has	
         been	fully	implemented	and	tested.	
	
Management	response:		USAID/WA	agrees	with	the	recommendation	to	conduct	a	follow‐
on	data	quality	assessment.		After	making	the	improvements	listed	under	Recommendation	
9,	PDEV	II	conducted	an	internal	data	quality	assessment	during the	third	quarter	of	Year	2	
as	an	initial	step.		Plans	are	currently	underway	for	USAID/WA	to	conduct	a	follow‐on	data	
quality	assessment.		
	
Corrective	action:		USAID/WA	will	conduct	a	data	quality	assessment	of	PDEV	II	during	
the	second	quarter	of	fiscal	year	2014	now	that	PDEV	II’s	monitoring	and	evaluation	
system	has	been	fully	implemented	and	tested.			
	
Target	Date: To	be	completed	by	March	31,	2014.			
	
         Recommendation	11.	We	recommend	that	USAID/West	Africa	follow	up	with	
         International	Relief	and	Development	to	confirm	in	writing	that	the	specified	training	


                                                                                            28
                                                                                  Appendix II


       from	the	internal	auditors’	report	has	been	provided	and	that	the	program	has	
       implemented	a	plan	to	address	these	training	needs	regularly.	
	
Management	response:		USAID/WA	agrees	with	the	recommendation	to	request	
confirmation	from	IRD	as	to	the	training	provided	as	a	result	of	the	internal	auditor’s	
report.		During	a	presentation	to	USAID/WA	on	October	7,	2013,	IRD	HQ	senior	
management	and	the	PDEV	II	Chief	of	Party	confirmed	that	the	specified	trainings	from	the	
internal	auditors’	report	are	taking	place	and	that	the	program had	implemented	a	plan	to	
regularly	address	these	training	needs.		In	line	with	the	auditor’s	report,	IRD	conducted	
training	on	business	ethics	and	fraud	prevention	during	the	first	two	months	of	the	second	
quarter	of	FY	2014.		IRD	will	complete	the	rest	of	the	training	identified	in	the	auditor’s	
report	by	the	end	of	second	quarter	of	FY	2014.		
	
Corrective	action:		USAID/WA	has	requested	and	IRD	has	agreed	that	IRD’s	FY	2014	
second	quarter	progress	report	include	confirmation	in	writing	that	the	specified	training	
from	the	internal	auditors’	report	has	been	provided	and	that	the	program	has	
implemented	a	plan	to	address	these	training	needs	regularly.	
	
Target	Date:		USAID/WA	has	requested	this	information	from	IRD	be	included	in	the	
March	31,	2014	quarterly	progress report.	
	
       Recommendation	12.	We	recommend	that	USAID/West	Africa	require	International	
       Relief	and	Development	to	clarify	and	document	responsibilities	and	procedures	for	
       activities	that	follow	on	from	Salam	Institute	training	workshops	and	curriculum	
       development	activities,	clearly	setting	out	the	roles	and	responsibilities	of	all	
       stakeholders,	including	the	institute,	and	allocating	appropriate	financial	resources	
       for	those	efforts.	
	
Management	Response	and	Corrective	Action:		IRD	provided	clarification	and	
adequately	documented	plans	for	follow‐on	activities	concerning	Salaam	Institute	training	
workshops	and	curriculum	development	in	the	PDEV	II	Year	Three	Annual	Work	Plan	and	
Milestone	Tracker,	including	stakeholder	roles	and	responsibilities,	targets,	dates,	and	
estimated	budgets.			
	
Closure	Request:		On	this	basis,	we	request	concurrence	that	final	action	has	been	taken	
and	that	the	recommendation	be	closed	upon	issuance	of	the	final	audit	report.	




                                                                                          29
                                                                                              Appendix III


                     Program Results for the First Year and Half of the Second13
              Objectives/Indicators                First      First     Second      Midyear     Results
                                                   Year       Year      Year        Results     Met (%)
                                                   Target14   Annual    Target
                                                              Results
     1. Empower Youth
     1.1.1. Number of individuals trained (youth      NA         0       1,150         38           3
     vocational)
     1.1.2. Number of youth assisted to               NA        47       1,150         18           2
     improve their livelihoods
     1.2.1. Number of individuals trained             NA         0      27,27015        0           0
     (youth-adult literacy)
     1.2.2. Number of formal and nonformal            NA         0        100          19          19
     schools benefiting from PDEV support
     1.3.1. Number of individuals trained (youth      NA        57       1,369        236          17
     leadership, theater, multimedia)
     1.4.1. Number of PDEV-supported                  NA         6        275          11           4
     community events with significant youth
     participation
     2. Increase Moderate Voices
     2.1.1. Number of individuals trained             NA        18        160         184         115
     (media outlet staff)
     2.1.2. Number of radio stations assisted         NA         6         32           3           9
     by PDEV
     2.2.1. Number of public information              NA         0         12           0           0
     campaigns completed by PDEV
     2.2.2. Number of hours of countering             NA       532.5       94          41          44
     violent extremism material produced by
     PDEV and broadcast and rebroadcast by
     PDEV-supported radio stations
     2.2.3. Number of hours of countering             NA       14.36       85         150         176
     violent extremism material produced,
     broadcast, and rebroadcast by PDEV-
     supported radio stations
     2.3.1. Number of individuals trained             NA        28        121         197         163
     (religious leaders)
     2.3.2. Number of inter- and intra-faith          NA         1          6           0           0
     activities facilitated by PDEV
     3. Increase Civil Society’s Capacity
     3.1.1. Number of individuals trained (civil      NA        23        250          36          14
     society organization staff)
     3.2.1. Number of individuals trained             NA        44        300           0           0
     (community action committee members)
     3.2.2. Number of community action                NA         0         50          19          38
     committees formed and meeting regularly
     3.2.3. Number of people attending PDEV-          NA       5,436     10,680         0           0
     supported community events

13
   The quality of data is questioned on page 14 of the report.

14
   There were no targets for the first year’s performance indicators because the baselines and PMP were

not yet complete. 

15
   Due to data discrepancies between the quarterly report and its annex for this indicator, we selected the

figure from Section 3.4 based on discussions with the chief of party. 


                                                                                                          30
                                                                                 Appendix III


         Objectives/Indicators          First      First     Second    Midyear    Results
                                        Year       Year      Year      Results    Met (%)
                                        Target14   Annual    Target
                                                   Results
 4. Strengthen Local Government
 4.1.1. Number of individuals trained (local NA         0        250       0          0
 government officials)
 4.1.2. Number of municipalities that learn  NA         0        50        0          0
 about best practices in participatory,
 accountable, and transparent local
 decision making as a result of PDEV
 intervention
 4.2.1. Number of community events held      NA         0        200       0          0
 to discuss local governance issues
 4.2.2. Number of best practices in          NA         0        12        0          0
 participatory, accountable, and
 transparent local decision making
 identified or developed as a result of
 PDEV
 4.3.1. Number of community development      NA         0        50        7         14
 projects successfully completed with
 PDEV assistance that respond to
 community development plans and/or
 expressed community needs
Sources: PDEV’s first year annual progress report, Annex G, and PDEV’s second year’s second
quarter progress report, Annex D.




                                                                                            31
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
